Department of Health and Human Services 

             OFFICE OF 

        INSPECTOR GENERAL 





 VARIATION IN STATE MEDICAID 

        DRUG PRICES





                     Inspector General

                     September 2004
                     OEI-05-02-00681
      A B S T R A C T


                  To assess the extent to which States’ Medicaid pharmacy
                  reimbursement varies for the same drugs, we analyzed fiscal year
                  (FY) 2001 prescription drug reimbursement data for 28 national
                  drug codes (28 drugs) from 42 States. The highest paying State’s
                  unit reimbursement price ranged from 12 to 4,073 percent more per
                  drug than the lowest paying State for the 28 drugs. Medicaid could
                  have saved $86.7 million in FY 2001 if all States had reimbursed at
                  the same price as the lowest paying State for each of the 28 drugs.
                  Multiple factors contribute to the differences in drug prices across
                  States. Even States with the same formula for estimating
                  pharmacy acquisition costs demonstrated variation in their average
                  annual reimbursement prices. We recommend that the Centers for
                  Medicare & Medicaid Services share more accurate drug pricing
                  information with States, conduct further research on the factors
                  that affect States’ drug prices, and annually review States’
                  reimbursement data to target technical assistance to higher paying
                  States.




OEI-05-02-00681    VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S   i
        E X E C U T I V E                                       S U M M A R Y           




                  OBJECTIVE
                  To assess the extent to which State Medicaid programs vary in
                  pharmacy reimbursement for the same type of prescription.


                  BACKGROUND
                  Medicaid prescription drug coverage is one of the most expensive
                  and fastest growing health care expenditures. In fiscal year (FY)
                  2001, Medicaid expenditures on prescription drugs totaled
                  approximately $20 billion, or 9 percent of the total Federal Medicaid
                  budget. From 1997 to 2001, Federal Medicaid expenditures for
                  prescription drugs grew at more than twice the rate of total
                  Medicaid spending.

                  The Centers for Medicare & Medicaid Services (CMS) sets
                  maximum drug reimbursement regulations and provides guidelines
                  within the State Medicaid Manual to ensure that the Federal
                  Government acts as a prudent buyer of drugs. Within these Federal
                  parameters, each State determines its own pharmacy
                  reimbursement formula(s).

                  To assess the variation in drug reimbursement prices across State
                  Medicaid agencies, we requested reimbursement data from all
                  States for FY 2001, based on national drug codes, the unique drug
                  identifiers used by the Medicaid program. Our sample consists of
                  28 national drug codes (referred to as “28 drugs”). We also obtained
                  contextual information about States’ pharmacy reimbursement
                  methodology for FY 2001. Our analysis is based on the 42 States
                  that responded to our data request.


                  FINDINGS
                  The highest paying State’s unit price ranged from 12 to 4,073
                  percent more per drug than the lowest paying State for the 28
                  drugs in our sample. For each of the 28 drugs, we used as a
                  benchmark the State that paid the lowest average annual unit
                  price. The difference between the highest and lowest paying States
                  ranged by drug from 12 to 4,073 percent.

                  On average, the highest paying State paid 477 percent more per
                  drug than the lowest paying State for each of the 28 drugs in our
                  sample. States’ prices varied more for the 10 non-innovator


OEI-05-02-00681    VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S       ii
E X E C U T I V E                S U             M M A R Y


                      (generic) drugs in our sample than the 18 innovator (brand name)
                      drugs.

                      For the 28 drugs sampled, on average, the highest paying State paid
                      approximately $200 more per prescription than the lowest paying
                      State. The reimbursement price differences per prescription ranged
                      from a low of $6 for Combivent to a high of $1,244 for Ranitidine.
                      The median price difference was $65. While a few States ranked
                      consistently high or low on all drugs, for most States,
                      reimbursement did not follow a consistent pattern.
                      Medicaid could have saved more than $86 million in FY 2001 if
                      all States paid the same price as the lowest paying State for each
                      of the 28 drugs in our sample. These potential savings represent
                      over 13 percent of the $653 million in total Medicaid funds spent for
                      these 28 drugs in the 42 States in FY 2001. The Federal share of
                      the savings would be $50 million, while States’ share would be $36
                      million. For the 28 drugs in our sample, potential Medicaid savings
                      per drug ranged from $141,000 for Zestril to $16.3 million for
                      Depakote.

                      For 9 of the 28 drugs, Medicaid’s potential savings exceeded 50
                      percent of total expenditures. In other words, for these nine drugs
                      Medicaid expenditures could have been cut in half if all States had
                      paid the same price as the lowest paying State for each drug.
                      States’ drug prices are a product of multiple factors and vary
                      even among States with the same pharmacy reimbursement
                      formula. All States reimburse pharmacies for drugs based on a
                      general reimbursement formula established by CMS, but this
                      formula allows significant State flexibility. One component of the
                      CMS reimbursement formula is the State’s estimated pharmacy
                      acquisition cost. The estimated pharmacy acquisition cost is often
                      used as a proxy to gauge State’s prices. A widespread assumption is
                      that States with the same estimated acquisition cost formula pay
                      similar prices. However, in our sample of drugs, differences in
                      States’ estimated acquisition cost formulas only partially explain
                      price differences. For instance, 15 States had the same estimated
                      acquisition cost formula (average wholesale price minus 10 percent),
                      but paid substantially different prices for the drugs in our sample.

                      In addition to estimated acquisition cost, State reimbursement
                      differences in defining “usual and customary” charge and setting
                      State maximum allowable costs also affect States’ drug prices.

    OEI-05-02-00681    VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S   iii
E E
  AX X
     PE E
        PC C
           EU U
              NT TDI IIV VXE E~ AS SEU UEM MCM MUA ATR R
                                                       I Y VY E                                     S U M M A R Y




                             RECOMMENDATIONS
                             CMS rules limiting Medicaid payments for drugs are intended to
                             ensure that the Federal Government acts as prudent buyer of drugs.
                             Our analysis found that the Federal drug reimbursement limits do
                             not ensure prudent reimbursement for drugs under Medicaid.

                             State price variation results from several factors, but fundamentally
                             stems from States’ lack of access to pharmacies’ true acquisition
                             costs. States rely on various proxies to estimate pharmacy
                             acquisition cost, but these proxies are not necessarily related to
                             pharmacies’ actual costs.

                             To ensure that the Federal Government pays for drugs more
                             prudently under the Medicaid program, CMS should:

                             1. Share average manufacturer price data with States to ensure
                             more accurate estimates of pharmacy acquisition cost.

                             2. Conduct further research on the factors that affect States’ drug
                             prices to more effectively advise States on ways to set their
                             reimbursement level.
                             3. Annually review the States’ drug prices in order to share
                             comparative State prices and methods to reduce costs; and target
                             drug reimbursement technical assistance to higher paying States.
                             Agency Comments
                             CMS provided comments on the draft report in which they stated
                             their non-concurrence with the report due to concerns about data
                             problems. In general, CMS had concerns about the magnitude of
                             the price variation and the fact that the prices paid by the highest-
                             paying States for certain drugs are above the Federal upper
                             payment limits. They requested that we validate the data with the
                             States. The full text of CMS’s comments is included in Appendix G.

                             We met with CMS staff to discuss and resolve their concerns. We
                             emphasized that we reported what States paid rather than what
                             States should have paid. We explained how we followed up with
                             States with potentially aberrant prices to verify whether this was
                             what the State actually paid.

                             CMS staff agreed with us that this report raises serious issues that
                             warrant attention. CMS staff have indicated that they plan to


         OEI-05-02-00681       VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S                   iv
                  follow up with States, particularly States with prices above upper
                  payment limits. We plan to send State-specific results of our
                  analysis to each State so that they can review their own Medicaid
                  drug payments. We also plan to conduct a future review of State
                  Medicaid drug prices. We look forward to continued work with CMS
                  to ensure the integrity of Medicaid drug payments.




OEI-05-02-00681    VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S   v
T A B L E                   O F                    C O N T E N T S                                   


          ABSTRACT                    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



          E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii



          I N T R O D U C T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



          F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


                      Highest State paid up to 4,073 percent more than lowest State ....... 8 


                      Medicaid could have saved $86.7 million in FY 2001 ...................... 13 


                      States’ drug prices derive from multiple factors .............................. 16 



          R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24



          A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26



          A P P E N D I C E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28


                      A: Sample of 28 Drugs ...................................................................... 28 


                      B: Primary Indications for Sample Drugs ....................................... 29 


                      C: Selected Characteristics of Sample Drugs .................................. 30 


                      D: Distribution of States’ Prices for Two Drugs .............................. 32 


                      E: Comparison of Dispensing Fees to States’ Prices ....................... 33 


                      F: Potential Savings by State……………………………………...…...34

                      G: Agency Comments………..……………………………………...…...35

          A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37



          E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38





OEI-05-02-00681             VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S                                                  vi
      I N T R O D U C T I O N                                                     




                  OBJECTIVE
                  To assess the extent to which State Medicaid programs vary in
                  pharmacy reimbursement for the same type of prescription.


                  BACKGROUND
                  Medicaid Drug Expenditures
                  All State Medicaid programs have elected to include prescription
                  drug coverage, one of the most expensive Medicaid benefits. In
                  fiscal year (FY) 2001, Medicaid expenditures on prescription drugs
                  totaled approximately $20 billion, representing 9 percent of the
                  annual Medicaid budget.1 The Medicaid program is the largest
                  payer for prescription drugs nationally, representing 14 percent of
                  the drug market.2 The Federal Government contributes a matching
                  percentage of State Medicaid outlays, ranging from 50 to 83 percent,
                  depending on the State’s per capita income.

                  Prescription drugs are the fastest growing health care expenditure.
                  Nationally, total spending for prescription drugs rose from $48.2
                  billion in 1992 to $141.8 billion in 2001.3 Similarly, Medicaid
                  expenditures for prescription drugs grew at more than twice the
                  rate of overall Medicaid spending from FYs 1997 to 2001.4 The
                  Centers for Medicare & Medicaid Services (CMS) projects that
                  Medicaid drug expenditures will continue to increase by an average
                  of 12.7 percent per year through 2011.5
                  These expected increases are significant in light of State budget
                  constraints. In FY 2002, 40 States faced budget shortfalls that
                  totaled nearly $40 billion. The gap between State revenue and total
                  spending was expected to widen to $58 billion during FY 2003.6 At
                  the same time, total Medicaid expenditures have risen 13 percent.
                  In a recent survey, 36 States identified prescription drug costs as
                  the top Medicaid cost driver in FY 2001, and 12 additional States
                  listed drugs as 1 of the top 3 expenditures. 7
                  Medicaid Pharmacy Reimbursement
                  Drug Cost. Under section 1902(a)(30)(A) of the Social Security Act,
                  CMS has the authority to set upper payment limits for services
                  available under the Medicaid program. For Medicaid, CMS sets
                  maximum drug reimbursement limits to ensure that the Federal
                  Government acts as a prudent buyer of drugs. 8 Within these



OEI-05-02-00681    VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S   1
I N T R O D           U C T    I O N


                         Federal parameters, each State determines its own pharmacy
                         reimbursement formula(s).

                         In general, States reimburse pharmacies for drugs at the lower of:
                         (1) estimated [pharmacy] acquisition cost; or (2) the pharmacy’s
                         usual and customary charge to the general public. 9 The estimated
                         acquisition cost is the State Medicaid agency’s best estimate of the
                         price generally and currently paid by providers for the drug. 10
                         CMS does not prescribe a method for calculating estimated
                         acquisition cost; instead, each State establishes and specifies its
                         own estimated acquisition cost formula in its Medicaid State plan.
                         States also have flexibility to define their interpretation of a
                         pharmacy’s usual and customary charge.

                         Estimating pharmacy acquisition cost can present a challenge for
                         States. Most often, States rely on published prices, including
                         average wholesale price (AWP) and wholesaler acquisition cost,
                         because they may not have access to the actual prices at which
                         pharmacies purchase drugs. States generally obtain these list
                         prices from a national pricing compendium issued by First
                         Databank, a private company. However, numerous studies and
                         audits by the Office of Inspector General (OIG) and other experts
                         have found that these list prices, particularly AWP, overstate the
                         prices pharmacies pay. For this reason, CMS requires that States
                         using AWP include a significant discount off this price for CMS to
                         consider it an acceptable estimate of pharmacy acquisition cost. 11
                         For certain multiple source drugs with a sufficient number of
                         equivalent products and at least three suppliers, CMS sets specific
                         Federal upper limit amounts. Multiple source drugs include generic
                         drugs and brand name drugs for which generic alternatives are
                         available (i.e., the drug’s patent has expired). The Federal upper
                         limit equals 150 percent of the lowest published price of the drug
                         listed in national pricing compendia. 12 States may reimburse above
                         the Federal upper limit price if the prescribing physician certifies
                         that the brand name version of the drug is medically necessary.

                         Additionally, some States establish their own maximum allowable
                         costs for multiple source drugs at a rate below an established
                         Federal upper limit or for drugs for which CMS has not set a
                         Federal upper limit. In a 2002 OIG survey, 24 States identified
                         their maximum allowable cost program as a successful drug cost
                         containment effort. Conceptually, State maximum allowable cost


    OEI-05-02-00681       VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S   2
I N T R O D           U C T    I O N


                         programs resemble the Federal upper limit program in that they
                         establish maximum reimbursement amounts for groups of
                         equivalent drugs, i.e., a brand name drug and its generic
                         equivalents.

                         In summary, State Medicaid programs reimburse pharmacies for
                         drugs based upon the following upper limits:

                         For multiple source drugs, reimbursement is the lowest of: (1) the
                         State’s estimated acquisition cost calculation; (2) the pharmacy’s
                         usual and customary charge; (3) Federal upper limit, if one has been
                         established; or (4) the State maximum allowable cost, if one has
                         been established.

                         For single source drugs, reimbursement is the lower of: (1) the
                         State’s estimated acquisition cost calculation; or (2) the pharmacy’s
                         usual and customary charge.
                         Dispensing Fees. In addition to reimbursing pharmacies for the cost
                         of the drug (also known as the ingredient cost), States are required
                         to determine “reasonable” dispensing fees. 13 This fee represents
                         the charge for the professional services provided by a pharmacist
                         when dispensing a prescription.
                         Medicaid Drug Rebate Program

                         In addition to setting reimbursement limits, the Medicaid program
                         limits expenditures by obtaining rebates from drug manufacturers.
                         Federal statute mandates that in order for their drugs to be
                         reimbursed by Medicaid, drug manufacturers must generally enter
                         into rebate agreements and pay quarterly rebates to the State
                         Medicaid agencies.14 CMS calculates rebate amounts using a
                         statutory formula based on average manufacturer price (AMP),
                         defined as the average price paid by wholesalers for drugs
                         distributed to the retail class of trade. For innovator (brand name)
                         drugs, this formula also includes a calculation based on best price,
                         defined as the lowest price available from the manufacturer to any
                         wholesaler, retailer, provider, health maintenance organization,
                         nonprofit entity, or government entity, excluding any prices charged
                         to a list of specified entities and an additional calculation based on
                         an inflation factor.15
                         Beneficiary Cost Sharing

                         Federal law 42 U.S.C. § 1396o(a)(3) allows States to require
                         “nominal” co-payments from certain beneficiaries. By law, States

    OEI-05-02-00681       VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S   3
I N T R O D           U C T    I O N


                         cannot impose cost sharing requirements on particular populations,
                         including children and pregnant women. 16 For those Medicaid
                         beneficiaries subject to cost sharing requirements, co-payments may
                         not exceed $3 per prescription. 17 Also, pharmacists may not
                         withhold a drug from a beneficiary who cannot afford to pay the co-
                         payment. 18
                         Coordination of Third Party Coverage

                         Some Medicaid beneficiaries have an additional third party (i.e.,
                         non-Medicaid) source of coverage for prescription drugs. In most
                         cases, Medicaid is the payer of last resort. This means that, in
                         general, the third party bears primary responsibility for paying that
                         beneficiary’s claims. If the Medicaid agency is aware of third party
                         coverage, the agency must reject the claim.19 If the third party does
                         not cover the full amount of the claim, then Medicaid may be
                         responsible for part or all of the remaining balance.

                         States use two basic methods for processing Medicaid pharmacy
                         claims when a third party is liable. A State Medicaid agency may
                         require the pharmacy to bill the third party first, and then the State
                         pays only the portion of the claim (if any) which is not covered by
                         the third party, up to the Medicaid reimbursement limit. This is
                         known as “cost avoidance.” Or, a State Medicaid agency may pay
                         the full amount that Medicaid reimburses for that claim, and then
                         the State assumes the responsibility for recouping payment from
                         the liable third party. This method is known as “pay and chase.”
                         Related Work by the Office of Inspector General
                         OIG has issued a significant body of work related to Medicaid drug
                         pricing. Numerous OIG reports have concluded that Medicaid pays
                         more than several other Federal and private purchasers for a wide
                         variety of drugs. Also, a 2002 OIG report “Medicaid Pharmacy -
                         Additional Analyses of the Actual Acquisition Cost of Prescription
                         Drug Products” (A-06-02-00041), found that the data upon which
                         States base pharmacy reimbursement overstate pharmacy
                         acquisition costs. More specifically, AWP overstated acquisition
                         costs of single source drugs by 17.2 percent, multisource brand
                         name drugs (without Federal upper limits) by 24.4 percent,
                         multisource generic drugs (without Federal upper limits) by 54.2
                         percent, and all drugs with Federal upper limits by 72.1 percent. In
                         these reports, OIG recommends that CMS review the current
                         reimbursement methodology, work with States to find a method


    OEI-05-02-00681       VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S   4
        I N T R O D              U C T     I O N


                                    that more accurately estimates pharmacy acquisition cost, and
                                    initiate a review of Federal Medicaid rebates.


                                    SCOPE AND METHODOLOGY
                                    This report is limited to Medicaid drug reimbursement prices for
                                    outpatient drugs purchased by the fee-for-service component of
                                    Medicaid. We excluded drug prices negotiated by Medicaid
                                    managed care organizations. This study is focused on the variation
                                    in the drug reimbursement States pay to outpatient pharmacies.
                                    Our drug cost calculations include only the reimbursement for the
                                    drug ingredient cost and exclude the dispensing fee. Therefore, our
                                    comparison demonstrates the variation in the cost of the drug itself,
                                    distinct from differences in States’ reimbursement for pharmacy
                                    services.

                                    We excluded consideration of the Federal rebate for purposes of this
                                    analysis.a States have flexibility in setting their own pharmacy
                                    reimbursement methodology; however, the Federal unit rebate
                                    amount for each drug is established by CMS and is the same for all
                                    States. While we recognize that the Federal rebate program is
                                    important to cost containment for all States, it is beyond the scope
                                    of this study.
                                    Sampling and Data Collection
                                    In Medicaid, drugs are identified and tracked by 11-digit national
                                    drug codes (NDCs). NDCs identify unique formulations of each
                                    drug, including the manufacturer, strength, and package size.

                                    We defined our sampling frames as the top 200 NDCs ranked by
                                    total FY 2001 Medicaid expenditures for each of the 3 categories of
                                    drugs. These three drug categories are: (1) single source drugs
                                    (brand name drugs with no generic equivalents), (2) innovator
                                    multiple source drugs (brand name drugs with generic equivalents),
                                    and (3) non-innovator multiple source drugs (generic drugs).

                                    From the sampling frame for each drug category, we randomly
                                    selected 10 NDCs. We later excluded 2 of these NDCs (both were


a   Excluding Federal rebates does not affect the absolute price difference across States, but it makes our percent
    difference calculations more conservative. For example, suppose State X reimburses $1.00 per unit for a drug,
    and State Y reimburses $0.50 per unit, and the unit rebate is $0.10. The absolute price difference between
    States X and Y is $0.50 for both reimbursement ($1.00 - $0.50) and net price after rebate ($0.90 - $0.40).
    However, State X pays 100 percent more than State Y when comparing reimbursement price ($1.00 vs. $0.50),
    but 125 percent more than State Y when comparing net prices after rebate ($0.90 vs. $0.40).

               OEI-05-02-00681        VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S         5
I N T R O D           U C T    I O N


                         innovator multiple source drugs) from our analysis because many
                         States did not cover these 2 NDCs during FY 2001. We will use the
                         term “28 drugs” to refer to the 28 NDCs included in our analysis.
                         We analyzed the variation for these 28 selected drugs, but we
                         cannot project the variation to the universe of Medicaid drugs. The
                         selected drugs are detailed in Appendix A. Also, Appendix B lists
                         the primary indication(s) for each drug.

                         We requested reimbursement information for our sample of drugs
                         from all 50 States and the District of Columbia for FY 2001. We
                         issued this request to both the Medicaid director and Medicaid
                         pharmacy director in each State. For each drug, we requested
                         States’ total drug ingredient cost reimbursement and total units for
                         each quarter of FY 2001 (October 2000 through September 2001).
                         Forty-two States responded.

                         We also surveyed each State’s Medicaid director and Medicaid
                         pharmacy director to collect contextual information on States’
                         pharmacy reimbursement for FY 2001, including States’: (1)
                         estimated acquisition cost formula(s); (2) sources of pricing data; (3)
                         definition of usual and customary charge; (4) State maximum
                         allowable costs; and (5) pharmacy dispensing fees.
                         Analysis
                         Though 42 States responded to our data request, some States could
                         not provide data from all 4 quarters for all 28 drugs. If a State
                         could not provide complete data for 4 quarters of FY 2001 for a
                         particular drug in our sample, we excluded that State from our
                         analysis for that drug. For 9 of the 28 drugs, we received complete
                         data from all 42 responding States. For 9 additional drugs, our
                         analysis relied on 41 of the 42 States. The drug for which the fewest
                         States provided complete data was Zestril, for which we used data
                         from 35 of the 42 States. Appendix A lists the number of States for
                         which we received complete data for each of the 28 drugs.

                         We used the States’ average annual unit prices as the basis for
                         measuring price variation and potential savings. For each State, we
                         calculated the FY 2001 average annual unit price for each drug by
                         adding together the total reimbursement for each of the 4 quarters
                         and dividing this by the sum of the total units for the 4 quarters.

                         For each drug, we assessed variation in unit reimbursement prices
                         across States in several ways. Primarily, we measured the percent
                         difference in average annual unit price between the highest paying

    OEI-05-02-00681       VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S   6
I N T R O D           U C T    I O N


                         State and the lowest paying State for each drug. We used the
                         lowest paying State for each drug as a benchmark. We also
                         calculated the interquartile range, which is the difference between
                         the prices paid by the States at the 25th and 75th percentile for
                         each drug. Finally, we applied several graphical techniques,
                         including scatterplots and stock market charts, to each drug to
                         assess the distribution of State prices. We used similar analyses to
                         measure variation across drug categories.

                         We measured the potential savings Medicaid could have achieved if
                         all States reimbursed for each drug at the same price as the lowest
                         paying State. For each drug, we determined the difference in
                         annual price per unit between the State with the lowest unit price
                         and each of the other States. We multiplied this unit price
                         difference for each State by the total number of units that the State
                         purchased in FY 2001. Our savings calculation is conservative
                         because for each drug we only included savings for the States from
                         which we received all 4 quarters of data for FY 2001. For some
                         drugs, savings are based on fewer than 42 States.

                         Additionally, we assessed each State’s success at obtaining lower
                         prices, relative to other States. For each drug, the State which
                         obtained the lowest unit price was ranked “one.” We then
                         evaluated States’ patterns of prices, relative to other States, to
                         determine whether States systematically obtain lower or higher
                         relative prices.

                         Finally, we synthesized the descriptive information from our survey
                         of States with the reimbursement data to explore how States’
                         differences in reimbursement methodologies and other factors may
                         affect differences in average annual drug prices.

                         Our review was conducted in accordance with the Quality
                         Standards for Inspections issued by the President’s Council on
                         Integrity and Efficiency.




    OEI-05-02-00681       VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S   7
           F I N D I N G S                               



The highest paying State’s unit price ranged from
                                                                  For each of the 28 drugs in our
12 to 4,073 percent more per drug than the lowest
                                                                  sample, we calculated the
      paying State for the 28 drugs in our sample.
                                                                  difference in annual unit price per
                                                                  drug between the lowest and
                                 highest paying States. For each drug, we used as a benchmark the
                                 State that paid the lowest average annual unit price. The difference
                                 between the highest and lowest paying States ranged by drug from
                                 12 to 4,073 percent. On average, the highest paying State paid 477
                                 percent more per drug than the lowest paying State for the 28 drugs
                                 in our sample. Median difference was 49 percent.

                                 The average difference between the highest and lowest paying
                                 States is considerably higher than the median difference because
                                 four drugs demonstrated a substantially higher level of variation
                                 than the rest of the sample. For these 4 drugs, the highest paying
                                 State paid over 2,000 percent more than the price paid by the lowest
                                 State. For 18 of the 28 drugs in our sample, the highest paying
                                 State paid between 12 and 71 percent more than the price paid by
                                 the lowest paying State. For the remaining 6 drugs, the highest
                                 paying State paid between 120 and 548 percent more than the price
   For 4 drugs, the highest
   paying State paid over 2000   of the lowest paying State. Appendix C provides the percent price
   percent more than the price   differences for each drug.
   of the lowest paying State	
                                 Price variation decreases when measured by interquartile
                                 differences because this measurement does not include the States
                                 with the highest and lowest reimbursement prices. However, a
                                 significant amount of variation remains, indicating that the States
                                 in the middle of the distribution also vary from each other. Table A
                                 provides the average, median, and range in percent differences
                                 between the highest and lowest paying States and between the
                                 States at the 25th percentile and at the 75th percentile.

                                      Table A. Measures of Percent Variation in States’ Unit Prices per Drug
                                                     Percent Difference between         Percent Difference between
                                                      Highest and Lowest States              Interquartile States
                                      Average                                        477%                 28%
                                      Median                                          49%                  6%
                                      Range                                       12% to 4073%         3% to 266%
                                      Source: OIG National Survey, 2002




           OEI-05-02-00681        VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S                8
F   I N D I N G 
S


                           On average, the highest paying State paid approximately $200 more per
                           package than the lowest paying State for the 28 drugs.
                           To calculate the reimbursement price difference per package, we
                           multiplied the unit price difference by the number of units per
                           package. The highest paying State paid an average of $197 more
                           than the lowest paying State per package for the 28 drugs in our
                           sample. The price differences per package range from $6 for
                           Combivent to $1,244 for Ranitidine HCl 1000. The median price
                           difference was $65. Table B displays the top five drugs by absolute
                           price differences per package between the lowest and highest paying
                           States.
             Table B. Drugs with the Greatest Absolute Price Difference per Package
                                                    Lowest State’s Price                      Highest State’s Price   Price Difference
             Drug
                                                       per Package                                per Package          per Package
             Ranitidine HCl 1000                                            $51                          $1,295              $1,244
             Atenolol                                                       $17                            $704               $687
             Prilosec                                                 $3,221                             $3,876               $654
             Ranitidine Tablets                                             $25                            $648               $623
             Ranitidine HCl 500                                             $27                            $648               $621

             Source: OIG National Survey, 2002
                           Absolute price difference per package is a product of both the level
                           of variation across States and the cost of the drug. For example,
                           Prilosec shows a difference of $654 between the highest and lowest
                           paying States and is ranked third in the absolute dollar difference
                           between the highest and lowest States. Because Prilosec is
                           relatively expensive, this represents only a 20 percent difference in
                           price. Conversely, Albuterol Sulfate, which is relatively
                           inexpensive, demonstrates a much lower absolute price difference
                           per package ($7), but this represents a 227 percent difference
                           between the highest and lowest State prices.
                           States’ prices vary most for non-innovator multiple source drugs.
                           Of the three drug categories, non-innovator multiple source drugs
                           (generic drugs) demonstrated the widest percentage range of prices
                           between the highest and lowest paying States. Price variation
                           ranged from 20 to 4,073 percent for the 10 non-innovator
                           multisource drugs in our sample. Innovator multisource drugs
                           ranked second in percent differences between the highest and
                           lowest States, and single source drugs demonstrated the least
                           percent variation. The median variation among the 10 non-


      OEI-05-02-00681        VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S                                       9
F   I N D I N G         S


                            innovator multisource drugs was 374 percent, compared to 53
                            percent for the 8 innovator multisource drugs and 18 percent for the
                            10 single source drugs. Table C displays the range, average, and
                            median percent differences in price for each of the three drug
                            categories.
      Table C. Percent Differences between High and Low States by Drug Category

                                                    Range of Percent                              Average Percent    Median Percent
      Drug Category
                                                    Price Differences                             Price Difference   Price Difference
      Single Source                                         12-71%                                     23%                18%
      Innovator Multisource                                33-227%                                     102%               53%

      Non-innovator Multisource                           20-4073%                                    1230%               374%

      Source: OIG National Survey, 2002



                            This wide variation in reimbursement price for non-innovator
                            multisource drugs is not limited to the difference between the
                            highest and lowest of the 42 State prices. If we exclude the States
                            with the highest and lowest prices from our analysis, the non-
                            innovator multisource drugs still demonstrate the most variation in
                            our sample, followed by the innovator multisource drugs, and then
                            the single source drugs. The average difference between the State
                            at the 25th percentile and the State at the 75th percentile (i.e., the
                            interquartile range) was 63 percent for the 10 non-innovator
                            multisource drugs. In contrast, the interquartile range for
                            innovator multisource and single source drugs averaged 14 percent
                            and 4 percent, respectively.

                            In addition to demonstrating greater percent variation, multiple
                            source drugs (both non-innovator and innovator) display a different
                            pattern of price variation than single source drugs. When the 42
                            States' prices are ordered from low to high for each drug, prices for
                            the single source drugs in our sample tend to increase at a more
                            consistent rate from the lowest State price to the highest State
                            price. In comparison, prices for multiple source drugs in our sample
                            tend to increase more sharply from one State to the next for several
                            States at the low and/or high ends of the price range. Prices for the
                            States in the middle of the price range, on the other hand, increase
                            more gradually from State to State. To illustrate these different
                            patterns, Appendix D displays the price distributions for a single
                            source and a multiple source drug.


      OEI-05-02-00681        VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S                                     10
F   I N D I N G         S


                             Many States do not pay consistently low or high prices across the 28
                             drugs in our sample.
                             To examine State patterns in drug prices, we ranked all States by
                             average annual unit price for each drug for which they provided
                             complete data. A rank of "one" identifies the State that reimbursed
                             at the lowest unit price. Thus, the lower the State's rank, the lower
                             its drug reimbursement prices. We averaged each State's rank
                             across all drugs for which they submitted data.

                             Chart 1 below displays the high, low, and mean rank across all 28
                             drugs for selected States and illustrates that several States
                             reimbursed at high relative prices for some drugs and low prices for
                             others. For each State, the top of the line indicates the highest rank
                             that State received for any of the drugs, the bottom of the lines
                             represent the lowest rank, and the dot indicates the mean rank for
                             that State. The longer the line, the greater the difference between a
                             State's highest and lowest rank. For example, across the 28 drugs,
                             Louisiana's ranks ranged from 3 to 42. Missouri's prices ranged
                             from being the lowest (a rank of one) for one drug to one of the
                             highest for another drug.


                            Chart 1. Highest, Lowest, and Mean Ranks for Selected States


              45
              40
              35
              30
       Rank




              25
              20
              15
              10
               5
               0
                   MI   TX       MD             AR             LA            IL         MO         UT   OH   NH   NM   NY   NJ




      OEI-05-02-00681         VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S                            11
        F   I N D I N G 
S


                                      However, as Table D demonstrates, some States displayed
                                      consistent patterns in price ranks relative to other States,
                                      particularly when States' ranks are assessed by drug category.
                                      Michigan and Texas paid consistently low reimbursement prices
                                      relative to other States, while New Jersey and New York ranked
                                      consistently high. Other States, such as Ohio and Nebraska, tended
                                      to vary in price rank depending on the type of drug. Both of these
                                      States paid relatively high reimbursement prices for single source
                                      and multiple source brand name drugs but relatively low
                                      reimbursement prices for generic drugs compared to other States.


                  Table D. Rank (out of 42 States) by Drug Category for Selected States

                                                                 Single Source                           Innovator         Non-innovator
                    State         All 28 drugs
                                                                    Drugs                             Multisource Drugs   Multisource Drugs
                      MI               1                                    1                                1                   3
                      TX               2                                    4                                2                   1
                     NY               41                                   39                                40                  40
                      NJ              42                                   42                                42                  42
                     OH               30                                   41                                31                  4
                     NE               29                                   36                                34                  10

                  Source: OIG National Survey, 2002


                                      States' reimbursement prices for the 28 drugs were not related to their
                                      dispensing fees to pharmacies.
                                      For the 28 drugs in our sample, States' dispensing fees were not
                                      related to their drug reimbursement prices, relative to other States.
                                      A State's total reimbursement to pharmacies for Medicaid
                                      prescriptions includes both the drug ingredient reimbursement to
                                      cover the cost of the drug itself, plus a dispensing fee to reimburse
                                      for the pharmacy's services.b For each drug category, we ranked
                                      States from the lowest drug reimbursement prices to the highest
                                      and then tested whether States' ranks were related to their
                                      dispensing fees.c We did not find that States with lower drug
                                      ingredient prices were compensating for their lower prices by paying
                                      higher dispensing fees. Appendix E provides details of this analysis.




b   When States reimburse at the usual and customary charge, the State does not pay a separate dispensing fee.
c   This analysis is based upon the 33 States with a flat dispensing fee. Nine States with variable fees were excluded.

                OEI-05-02-00681         VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S                               12
         F   I N D I N G          S      





Medicaid could have saved $86.7 million in FY 2001,                     For each drug, we determined the
      if all States paid the same price as the lowest                   difference in annual unit
paying State for each of the 28 drugs in our sample                     reimbursement price between the
                                                                        State with the lowest unit price
                                      and each of the other States. We multiplied this unit price
                                                                    d

                                      difference for each State by the total number of units that the State
                                      paid for in FY 2001. We found that Medicaid could have saved
                                      $86.7 million in FY 2001 for the 28 drugs in our sample. This
                                      potential savings represents over 13 percent of the $653 million
                                      Medicaid spent for these 28 drugs in the 42 States. The Federal
                                      share of the savings would have been $50 million, while States'
                                      share would have been over $36 million.
                                      Single source drugs could achieve the greatest potential savings of the
                                      three drug categories.
                                      In our sample, potential savings associated with the single source
                                      drugs far exceed the potential savings of both types of multiple
                                      source drugs in terms of absolute dollar amount. Medicaid could
                                      have saved $52.2 million (60 percent of the total savings) on the 10
                                      single source drugs, followed by $25.5 million (30 percent) on the 10
                                      non-innovator multisource drugs, and $8.9 million (10 percent) for
                                      the 8 innovator multisource drugs in our sample.

                                      Decreasing the unit reimbursement prices of the single source drugs
                                      by even a small percentage would produce substantial savings
                                      because single source drugs are the most expensive and the most
                                      highly utilized drug category. In our sample, the 10 single source
                                      drugs account for 77 percent of the total expenditures on the 28
                                      drugs. Table E provides drug expenditures and potential savings
                                      information for the three drug categories.




 d   Our savings calculation is conservative because for each drug we only included savings for the States from
     which we received all 4 quarters of data for FY 2001. For some drugs, savings are based on fewer than 42
     States.

                OEI-05-02-00681        VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S         13
    F   I N D I N G          S



Table E. FY 2001 Expenditures and Potential Savings by Drug Category

Drug Category                                       FY 2001                          Percent of           Potential         % of Total
                                                  Expenditures                         Total               Savings       Potential Savings
                                                                                    Expenditures
Single Source (10 drugs)                              $504 million                          77%          $52.2 million         60%
Innovator Multisource (8 drugs)                            $34 million                       5%           $8.9 million         10%
Non-innovator Multisource (10 drugs)                  $116 million                          18%          $25.5 million         30%
Totals (28 drugs)                                     $654 million                         100%          $86.7 million        100%
Source: OIG National Survey, 2002


                                  Almost half of Medicaid’s potential savings would come from 5 of the 28
                                  drugs.
                                  In our sample of 28 drugs, potential Medicaid savings per drug
                                  ranged from $141,000 for Zestril to $16.3 million for Depakote.
                                  Depakote accounted for 19 percent of the total savings for the 28
                                  drugs. The median potential savings per drug are $2 million.
                                  Appendix F provides potential savings associated with each drug.

                                  Five of the 28 drugs produced almost half (49 percent) of the total
                                  potential savings. These drugs are Depakote, with $16.3 million in
                                  potential savings; Prilosec ($7.4 million); Lipitor ($6.9 million);
                                  Avonex Kit ($6.2 million); and Oxycontin ($5.8 million). Potential
                                  savings from these 5 drugs total $42.5 million for FY 2001.
                                  Spending on these 5 drugs, which account for the highest
                                  expenditures in our sample, totaled $376.2 million, representing
                                  more than half of the total Medicaid expenditures for the 28 drugs
                                  in the 42 States in FY 2001. Because these drugs are costly and
                                  highly utilized, any price reduction would have an important impact
                                  on Medicaid savings.
                                  Medicaid could have saved more than 50 percent on 9 of the 28 drugs.
                                  For 9 of the 28 drugs, Medicaid’s potential savings exceeded 50
                                  percent of total expenditures. In other words, for these drugs
                                  Medicaid could have spent less than half of what was spent if all
                                  States had paid the same price as the lowest paying State.

                                  For instance, Medicaid could have spent 92 percent less than its FY
                                  2001 expenditures on Atenolol. In FY 2001, the 42 States could
                                  have reimbursed pharmacies for the 8 million units of Atenolol for
                                  less than $135,000 instead of the $1.8 million actually paid.
                                  Michigan and Maryland each paid less than $20 per bottle for


           OEI-05-02-00681          VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S                                 14
F   I N D I N G          S


                             Atenolol, while the average State reimbursement price was $274 per
                             bottle. One State paid over $700 per bottle for the exact same drug.
                             Table F lists the top five drugs by savings as a percentage of
                             expenditures.
               Table F. Top 5 Drugs by Savings as a Percentage of Expenditures in FY 2001
                                                                                             Medicaid Could       Savings as Percent
                  Drug                                   Medicaid Paid
                                                                                               Have Paid           of Expenditures
                  Atenolol Tablets                              $1.8 million                         $135,000             92%
                  Ranitidine HCl 1000                           $4.4 million                         $506,000             89%
                  Ranitidine HCl 500                            $4.0 million                         $522,000             87%
                  Ranitidine Tablets                            $3.6 million                         $521,000             86%
                  Trimox Capsules                               $2.6 million                         $807,000             69%
                  Total for 5 drugs                           $16.4 million                        $2.5 million           85%
               Source: OIG National Survey, 2002

                             Each State’s potential savings depends on the State’s unit prices and
                             utilization.
                             Savings calculations for each State are a product of the State’s unit
                             price, relative to the lowest paying State, and the State’s utilization.
                             The higher the State’s unit reimbursement price compared to the
                             lowest paying State, the larger the per unit difference. This difference
                             per unit is then multiplied by the total units the State reimbursed.
                             Therefore, the more units purchased, the greater potential savings
                             that could be realized by reducing the State’s unit price.

                             The potential Medicaid savings by State ranges from $8,100 for
                             Arizona to $13 million for New York. Potential savings from the
                             median State is $1.1 million. Table G displays the potential savings
                             from the top five States. These 5 States account for almost 42 percent
                             of the total savings for the 42 States. Appendix F provides the
                             potential savings for every State.
                              Table G. States with the Greatest Potential Savings
                                                                                                                 % of Total
                                  State                                           Potential Savings
                                                                                                              Potential Savings
                                  New York                                                $13.0 million             15%
                                  Ohio                                                      $7.6 million             9%
                                  New Jersey                                                $5.6 million             7%
                                  North Carolina                                            $5.1 million             6%
                                  Illinois                                                  $4.6 million             5%
                                  Total for 5 States                                      $35.9 million             42%
                              Source: OIG National Survey, 2002



      OEI-05-02-00681         VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S                                   15
   F   I N D I N G         S


                               High utilization contributed to the high potential savings for the top
                               two States. New York, the State with the highest potential savings,
                               had the highest utilization of the 28 drugs in our sample. Ohio
                               could have generated the next highest savings, $7.6 million, and is
                               ranked second in utilization of these drugs.

                               Comparing Michigan and New Jersey demonstrates how relative
                               reimbursement price also affects savings. Michigan paid
                               consistently low prices relative to other States, including paying the
                               lowest price for 11 of the 28 drugs. New Jersey paid consistently
                               high prices relative to other States, including paying the highest
                               price for 5 of the 28 drugs. In FY 2001, New Jersey ranked 10th in
                               utilization (almost 15 million units) for the drugs in our sample;
                               Michigan ranked 12th (almost 14 million units). However, New
                               Jersey could produce the third highest savings, $5.6 million, while
                               Michigan’s potential savings are only $547,000 (less than one-tenth
                               of New Jersey’s). Michigan’s savings rank 31 out of the 42 States.
                               This substantial disparity in potential savings is a result of unit
                               price differences between the two States.

States’ drug prices derive from multiple factors
    and vary even among States with the same                   States’ average unit drug prices are a
             pharmacy reimbursement formula                    product of multiple factors. These
                                                               factors stem from States’ lack of
                               access to pharmacies’ actual acquisition costs, which compels States
                               to rely on proxies to estimate acquisition cost. We present
                               information on how each factor could affect States’ drug prices, and
                               where possible, demonstrate this effect within our sample of drugs.
                               However, measurement of the relative impact of each factor on each
                               State’s average annual price is beyond the scope of our data and this
                               report.

                               All States reimburse pharmacies for drugs based on the general
                               upper payment limit formula established by CMS, but this formula
                               allows significant State flexibility. In general, States reimburse at
                               the lowest of: (1) estimated [pharmacy] acquisition cost; (2) the
                               pharmacy’s usual and customary charge to the general public; (3)
                               the Federal upper limit amount, if applicable; or (4) the State
                               maximum allowable cost, if applicable.

                               Additionally, there are factors beyond the drug reimbursement
                               formula that can affect States’ reimbursement to pharmacies. One
                               is that States may impose nominal co-payments for prescription


         OEI-05-02-00681        VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S   16
F   I N D I N G 
S


                        drugs for certain Medicaid beneficiary populations. In this case, the
                        State pays the pharmacy according to its drug reimbursement
                        formula, less the amount of the beneficiary co-payment. Another
                        factor is that States use different methods for processing claims
                        when a third party is liable for payment. These differences can
                        affect States’ pharmacy reimbursement.
                        Differences in States’ estimated acquisition cost formulas only partially
                        explain price differences.
                        Within broadly set Federal regulations and the State Medical
                        Manual guidelines, each State is responsible for determining its
                        own method to estimate pharmacy acquisition cost, since they do
                        not have access to actual acquisition costs. Typically, States base
                        estimated acquisition cost on average wholesale price (AWP) minus
                        a discount. Six of our 42 States base estimated acquisition cost on
                        wholesaler acquisition cost plus an additional percentage or a
                        combination of AWP and wholesaler acquisition cost. Most States
                        apply one estimated acquisition cost formula to all drugs and all
                        pharmacies. In FY 2001, 2 of our 42 States applied different
                        estimated acquisition cost formulas to brand and generic drugs, and
                        1 State used a different estimated acquisition cost for chain versus
                        independent pharmacies.

                        In FY 2001, the most common estimated acquisition cost formula,
                        AWP minus 10 percent, was used by 15 of the 42 States in our
                        sample. States’ discount off AWP ranged from 5 percent to 16.5
                        percent. Six States used wholesaler acquisition cost plus a mark-up
                        percentage ranging from 7 to 11 percent.

                        A State’s estimated acquisition cost formula is often used as a proxy
                        by which to gauge that State’s reimbursement prices, and it is
                        usually assumed that States with the same estimated acquisition
                        cost formula pay similar prices. However, for the 28 drugs in our
                        sample, States with the same estimated acquisition cost formula
                        paid substantially different prices. Among the 15 States with an
                        estimated acquisition cost formula of AWP minus 10 percent, the
                        highest paying State paid between 6 percent and 1,664 percent more
                        for the 28 drugs in our sample. For these 15 States, the highest
                        paying State paid 187 percent more, on average, for the 28 drugs.
                        The median percent difference was 26 percent.

                        Comparing these percent differences among the 15 States with the
                        same estimated acquisition cost formula to the price differences
                        among all 42 States indicates that differences in estimated

      OEI-05-02-00681    VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S   17
F   I N D I N G 
S


                              acquisition cost formulas account for some of the variation in prices
                              across States. These 15 States display less variation than the
                              variation found among all 42 States. The 15 States averaged a price
                              variation of 187 percent for the 28 drugs, while all 42 States
                              averaged a price variation of 477 percent for the 28 drugs. Table H
                              displays the comparison between variation among the 15 States
                              with an estimated acquisition cost formula of AWP minus 10
                              percent to the variation among all 42 States for selected drugs.

                Table H. Percent Price Variation for Selected Drugs among States with Same Estimated
                Acquisition Cost (EAC) Formula
                                                      Price Variation for 15 States                       Price Variation for All 42
                  Drug
                                                          with EAC=AWP-10%                                         States
                  Prilosec                                                 13%                                      20%
                  Depakote                                                 25%                                      71%
                  Clotrimazole                                             49%                                      194%
                  Albuterol Sulfate                                       103%                                      227%
                  Atenolol                                               1664%                                     4073%
                Source: OIG National Survey, 2002

                              In particular, States’ estimated acquisition cost formulas should
                              explain most of the variation in State unit prices for single source
                              drugs. Because single source drugs are not subject to Federal upper
                              limits or State maximum allowable costs, the reimbursement price
                              should reflect either the estimated acquisition cost or the usual and
                              customary charge to the general public.

                              However, for the 10 single source drugs in our sample, the price
                              variation among the 15 States with estimated acquisition cost
                              formulas of AWP minus 10 percent does not support this
                              expectation. Although there is less variation among the 15 States
                              than among all 42 States, considerable variation remains. Table I
                              provides average and median differences between the highest and
                              lowest paying States for the 10 single source drugs in our sample.

               Table I. Percent Variation in Single Source Drug Prices for States with Same EAC
               Average Variation             Average Variation                           Median Variation         Median Variation
                 for 42 States                 for 15 States                              for 42 States            for 15 States
                        23%                                 12%                                     18%                   12%
               Source: OIG National Survey, 2002




      OEI-05-02-00681          VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S                                      18
                F   I N D I N G                S


                                                   Chart 2 below illustrates the extent to which the reimbursement
                                                   prices of the 15 States with the same estimated acquisition cost
                                                   formula are dispersed throughout the price distribution of all 42
                                                   States. Each of the 42 States’ unit prices for Detrol (a single source
                                                   drug) are arrayed from the lowest paying State to the highest. The
                                                   unit prices of the States with an estimated acquisition cost of AWP
                                                   minus 10 are indicated by a white square, and all other States’
                                                   prices are indicated with a dark triangle. As shown, Pennsylvania
                                                   has an estimated acquisition cost of AWP minus 10 percent and
                                                   paid the sixth lowest unit price, while Nebraska has the same
                                                   estimated acquisition cost, yet paid the highest price of the 42
                                                   States for this drug.e

                                           Chart 2. States' Unit Prices for Detrol
                               Prices for States with EAC=AW P-10%    - are labeled & indicated with a white square.
                                          All other States' prices indicated with a black triangle.
$1.35



$1.30



$1.25



$1.20



$1.15



$1.10
                       PA ME          NV             IN                              SC       MT         VT                KY GA   ND   NC NY   KS NJ NE



                                                   States’ differences in usual and customary charge also affect States’
                                                   average reimbursement prices.
                                                   CMS rules require States to reimburse pharmacies for drugs at the
                                                   pharmacy’s usual and customary charge to the public if this price is
                                                   lower than the estimated acquisition cost, Federal upper limit, and
                                                   State maximum allowable cost. However, as part of their effort to
                                                   more closely approximate actual acquistion costs, States define the
                                                   usual and customary charge differently. Definitions include the
                                                   pharmacy’s charge to the cash-paying customer or the pharmacy’s
                                                   charge to the patient group accounting for the largest number of
                                                   non-Medicaid prescriptions. Many States exclude prices paid by

        e   No States had a maximum allowable cost for this drug in FY 2001.

                       OEI-05-02-00681                VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S                          19
F   I N D I N G 
S


                        third-party payers from usual and customary charges, while a few
                        require pharmacies to include prices they accept from third-party
                        payers as usual and customary charges. Because usual and
                        customary charges are based on the prices the individual pharmacy
                        charges, these amounts can vary among pharmacies within the
                        same State. Further, the extent to which States monitor and
                        enforce pharmacies’ billing of usual and customary charges is
                        uncertain.

                        While it is difficult to measure the effect of differences in usual and
                        customary charge definitions on States’ average prices, their impact
                        may be significant. One expert estimated that, nationally, roughly
                        25 percent of all Medicaid drug claims are paid at the usual and
                        customary charge. 20 Additional evidence suggests that the
                        frequency with which drugs are purchased at the usual and
                        customary charge varies across States. Massachusetts analyzed its
                        Medicaid drug claims for the month of July 2002 and found it paid
                        34 percent of all claims at the usual and customary charge. 21 In
                        contrast, Vermont paid only 10 percent of its FY 2002 drug claims at
                        the usual and customary charge. 22 Finally, Texas calculated its
                        rate of claims paid at usual and customary charge to be 22
                        percent.23
                        States’ maximum allowable costs contribute to the price variation for
                        multiple source drugs.
                        States’ maximum allowable costs offer another reason why States’
                        reimbursement prices for multiple source drugs vary more than
                        prices for single source drugs. States determine for which multiple
                        source drugs, if any, to set maximum allowable costs. States that
                        set maximum allowable costs may pay lower prices for these drugs
                        than States that base reimbursement exclusively on estimated
                        acquisition cost formulas and usual and customary charge. Twenty
                        of the 42 States reported a maximum allowable cost for at least 1
                        drug in our sample. On average, the 20 States reported maximum
                        allowable costs for 10 of the 18 multiple source drugs in our sample.
                        For 8 of the 18 multiple source drugs in our sample, the lowest
                        paying States set maximum allowable costs. The highest paying
                        States had not set maximum allowable costs for any of the multiple
                        source drugs.

                        States vary considerably in the maximum allowable cost prices they
                        set for the same drug. For eight multiple source drugs, the highest
                        reported maximum allowable cost was more than twice as expensive


      OEI-05-02-00681    VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S   20
      F   I N D I N G            S    



                                     as the lowest maximum allowable cost. For example, in FY 2001,
                                     Oklahoma’s maximum allowable cost for Ranitidine was almost
                                     $0.38 per pill, a price 371 percent higher than Washington’s
                                     maximum allowable cost of $0.08 per pill for the same drug.f
                                     Finally, while a State’s maximum allowable cost generally acts as a
                                     ceiling price, States sometimes reimburse at prices above their
                                     maximum allowable cost for a particular pharmacy claim. A
                                     maximum allowable cost applies to a group of equivalent drugs (i.e.,
                                     a brand name drug and its generic versions), and the maximum
                                     allowable cost amount is commonly based on the least expensive
                                     drug in the group. If a physician certifies that a specific drug within
                                     a maximum allowable cost group is medically necessary, then a
                                     State may reimburse a greater amount for that drug based on its
                                     estimated acquisition cost formula or usual and customary charge.
                                     Cost sharing requirements and coordination of third party coverage can
                                     also affect States’ pharmacy reimbursement.
                                     Beyond drug reimbursement methodologies, differences in States’
                                     cost sharing requirements can affect the variation in States’
                                     pharmacy reimbursement. States may require “nominal” co-
                                     payments from beneficiaries that do not exceed $3 per prescription.
                                     For prescriptions with a cost sharing requirement, the State
                                     subtracts the amount of the beneficiary co-payment from its
                                     reimbursement to the pharmacy.

                                     The potential impact of co-payments on States’ average annual price
                                     per unit varies by drug. The maximum co-payment is $3 per
                                     prescription, so the effect on the unit price depends on the number
                                     of units per prescription. In our sample, units per prescription
                                     ranged from 4 units, for which a $3 co-payment reduces a State’s
                                     unit price by $0.75/unit, up to 1,000 units, for which a $3 co-
                                     payment reduces a State’s unit price by less than one penny
                                     ($0.003). These potential reductions in unit price can also be
                                     expressed as a percentage of the average unit price for each drug.
                                     Table J lists the absolute and percent reductions in unit price
                                     resulting from a $3 co-payment for a selection of drugs.




f   Our sample includes three national drug codes for Ranitidine. These maximum allowable cost amounts are the
    same for all three.

               OEI-05-02-00681            VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S   21
F   I N D I N G          S

Table J. Potential Reduction in Unit Price based on $3 Co-payment
                                                                                                               Potential Percent
                       Units per                 Potential Reduction                           Average Unit
Drug                                                                                                             Reduction in
                      Prescription                  in Unit Price                                 Price
                                                                                                              Average Unit Price
Prilosec                 1000                               $0.003                                $3.62             0.1%
Sandimmune                50                                 $0.060                               $5.69             1.1%
Depakote                  100                               $0.030                                $0.80             3.7%
Albuterol Sulfate         20                                $0.150                                $0.33             46.1%
Source: OIG National Survey, 2002

                        However, we cannot measure the extent to which co-payments contribute to
                        the variation in average annual drug prices in our sample, because States
                        do not deduct the co-payment amount when reimbursing claims for
                        exempted beneficiaries. For each of the 28 drugs, we have data on total
                        units purchased by each State but do not have data on what percentage of
                        these units went to beneficiaries who are subject to cost sharing
                        requirements.

                        Additionally, differences in States’ processing of claims in which a third
                        party is liable can impact pharmacy reimbursement. Because States that
                        use a cost avoidance method may only reimburse pharmacies for Medicaid’s
                        liable portion of claim, their reimbursement data reflect only the amount for
                        which Medicaid is responsible. In contrast, States that use a pay and chase
                        method reimburse the pharmacy the full amount Medicaid reimburses for
                        that claim, which is reflected in their reimbursement data. Even if these
                        States recoup payment from a third party, they do not necessarily update
                        each specific drug claim to reflect the recoupment. Further, a 2001 OIG
                        report, “Medicaid Recovery of Pharmacy Payments from Liable Third
                        Parties” (OEI-03-00-00030) found that in 1999, 32 States were at risk of
                        losing over 80 percent of the pharmacy payments they tried to recover from
                        third parties through the pay and chase method.

                        We cannot measure the extent to which these different methods of
                        pharmacy claims processing contribute to the variation in drug
                        reimbursement for our sample of drugs. We do not have data on what
                        percentage of claims involved third party liability for each State for the 28
                        drugs in our sample. Using cost avoidance when a third party is liable
                        could lower a State’s average reimbursement for a drug. Michigan
                        primarily used the cost avoidance method and ranked first overall in
                        obtaining the lowest prices for the drugs in our sample. However, New
                        York also used cost avoidance and ranked 41 out of the 42 States for the 28



    OEI-05-02-00681       VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S                                       22
F   I N D I N G       S

                      drugs sampled. Texas used the pay and chase method and achieved the
                      second lowest prices overall for our sample of drugs.




    OEI-05-02-00681    VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S   23
         R E C O M M E N D A T I O N S                                                  



                  In the State Medicaid Manual, CMS states that “HHS rules [limiting
                  Medicaid payments for drugs] are intended to ensure that the Federal
                  Government acts as a prudent buyer of drugs” under the Medicaid program.24
                  Our analysis suggests that the Federal drug reimbursement limits do not
                  ensure prudent buying of drugs by State Medicaid agencies. These limits
                  may not achieve the goal of prudent expenditures for drugs, given the
                  tremendous variability in the amounts States paid for the same set of drugs.

                  If all States had reimbursed at the same price as the lowest State for each
                  drug in our sample, the Medicaid program could have saved more than $86
                  million in FY 2001. Again, these potential savings derive from only 28 drugs
                  for the 42 States that provided data. Overall, Medicaid covers almost 60,000
                  National Drug Codes, using the same reimbursement methods that produced
                  the vast price discrepancies for the 28 drugs in our sample. A clear example
                  of concern is one State’s payment of $700 for a specific Medicaid prescription,
                  while two other State Medicaid programs purchase the same prescription for
                  less than $20.

                  In addition to highlighting the variation in States’ drug reimbursement prices
                  and the effect of this variation on Medicaid drug costs, this report provides a
                  starting point for examining why States’ drug prices vary greatly. Most
                  examinations of Medicaid drug prices focus on States’ estimates of pharmacy
                  acquisition cost. However, our analysis demonstrates that differences in
                  States’ estimated acquisition cost formulas only partially explain drug price
                  differences and that several other factors affect States’ drug prices.

                  Most importantly, the factors that drive variability in drug prices across
                  States stem from States’ lack of access to pharmacies’ true acquisition costs.
                  Because they lack information about such costs, States rely on estimated
                  acquisition costs, usual and customary charges, and maximum allowable
                  costs as proxies for pharmacies’ acquisition cost. These proxies are deficient
                  because they are not necessarily linked to the prices at which pharmacies
                  purchase drugs. The wide variation in State Medicaid prices results from the
                  deficiencies in these proxies for estimating pharmacies’ acquisition costs.
                  CMS should share average manufacturer price data with States to ensure more
                  accurate estimates of pharmacy acquisition cost.
                  Currently, average manufacturer price data may represent the most accurate
                  drug pricing data available to CMS. While pharmacies are not compelled to
                  share their actual acquisition costs with CMS or the States, drug
                  manufacturers are required to submit average manufacturer price data to
                  CMS each quarter as part of the Medicaid rebate program. Average
                  manufacturer price is statutorily-defined and is calculated from actual sales
                  transactions between drug manufacturers and wholesalers.


OEI-05-02-00681    VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S       24
R   E C O         M M E N D A T                           I O N               S

                     Previously, OIG has recommended that CMS share average manufacturer
                     price with the States to help improve their estimates of pharmacy acquisition
                     cost.25 In response, CMS disagreed with the recommendation citing issues
                     associated with average manufacturer price confidentiality.
                     Further research is needed on the factors that affect States’ drug prices.
                     If States continue to lack accurate price information, CMS should strengthen
                     its work to improve States’ ability to optimally reimburse for drugs within the
                     current Medicaid pharmacy reimbursement framework.

                     To maximize their capacity to assist States, CMS should further examine the
                     determinants of States’ drug prices, including (1) States’ estimated
                     acquisition cost formulas, (2) usual and customary charges, and (3) maximum
                     allowable cost limits. We recognize that CMS has initiated efforts to further
                     understand the impact of State maximum allowable costs and the Federal
                     upper limit program. We support this effort and encourage CMS to apply the
                     findings from this project and to expand its research on drug pricing and
                     Medicaid reimbursement to include estimated acquisition cost and usual and
                     customary charges. By understanding how each of these factors affects
                     States’ drug reimbursement, CMS can more effectively advise States on ways
                     to set their reimbursement levels that help to ensure that the Federal
                     Government pays for drugs more prudently under the Medicaid program.
                     CMS should annually review the States’ drug prices and target technical
                     assistance to States paying the highest reimbursements.
                     To assess States’ relative success in drug reimbursement, CMS should
                     conduct annual analyses of States’ prices for a specific sample of drugs using
                     methods similar to those used in this report. States already submit the
                     necessary reimbursement data to CMS. Performing such analysis would
                     allow CMS to target their technical assistance by prioritizing States that pay
                     the highest drug reimbursement prices. Technical assistance would include
                     providing guidance to States on how to improve reimbursement
                     methodologies, based on CMS’s enhanced research, as detailed above;
                     ensuring States are aware of how their reimbursement prices compare to
                     other State Medicaid programs; and sharing successful reimbursement
                     strategies from other States.

                     Annual reviews of States’ drug reimbursement also enable CMS to monitor
                     States’ improvement over time. Further, State Medicaid reimbursement
                     methods and the larger pharmaceutical marketplace are complex and
                     dynamic. Therefore, ongoing monitoring is essential for CMS to continually
                     target and maximize its resources for improving States’ drug reimbursement
                     under Medicaid.



OEI-05-02-00681       VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S   25
             A G E N C Y                             C O M M E N T S                    



                  CMS provided comments on the draft report in which they stated that they
                  do not concur with the report because of concerns about problems with the
                  data. CMS provided two specific examples that they considered to be
                  problems in our report. In addition, CMS recommended that we validate
                  the data with the States. The text of CMS’s comments is included in
                  Appendix G.

                  We do not believe that our report contains numerous errors and that either
                  of the two examples CMS cited demonstrate errors or problems in our
                  report. Therefore, we met with CMS staff to discuss these specific examples
                  and any other concerns.

                  The first example cited in CMS’s comments was related to the price of a
                  different package size of Prilosec than the one included in our review. We
                  have included additional language in the finding to clarify our calculation of
                  prescription prices per package for each of the 28 NDCs in our review.

                  The second example reflected more general concerns. These concerns
                  centered on the magnitude of the price variation that we reported and the
                  prices paid by the highest-paying States for certain drugs. As described in
                  the report, reimbursement for drugs is subject to upper payment limits in
                  which States must pay the lowest of: (1) estimated [pharmacy] acquisition
                  cost; (2) the pharmacy’s usual and customary charge to the general public;
                  (3) the Federal upper limit amount, if applicable; or (4) the State maximum
                  allowable cost, if applicable. For some drugs, the prices we report for the
                  highest-paying States are higher than this upper limit formula would
                  dictate. This led CMS staff to question the accuracy of the data that States
                  provided us. This was the central issue in the second example that CMS
                  cited in their comments, i.e., some States reimbursed at prices above the
                  Federal upper limit.

                  We agreed with CMS staff that some State prices are above the upper
                  payment limit for certain drugs and that this is problematic. We
                  emphasized, however, that we are reporting what States paid rather than
                  what States should have paid. We described our process of reviewing all of
                  the State-reported data, including the fact that we followed up with States
                  whose prices appeared aberrantly high or low to verify whether this was
                  what the State actually paid.

                  Additionally, at the meeting CMS staff raised some technical
                  considerations, including States’ methodology for excluding dispensing fees
                  from ingredient reimbursement cost and States’ systems for ensuring that




OEI-05-02-00681    VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S       26
A G    E N        C Y       C O             M M E N T                           S

                        pharmacies bill for drugs correctly. We also discussed State differences in
                        “usual and customary” charges, State maximum allowable costs, and third
                        party liability, which are addressed in the report.

                        We agree that all of these factors can affect the magnitude of State drug
                        price variation. In this inspection, we focused on measuring State drug
                        price variation, and while we discussed potential causes of variation,
                        measurement of cause was beyond our scope. We plan to send each State
                        data comparing its Medicaid reimbursement prices to the other States’
                        prices for each of the 28 drugs. We will suggest that each State review its
                        Medicaid drug payments and the factors that affect its prices.

                        In conclusion, this report raises serious issues concerning Medicaid
                        prescription drug reimbursement that warrant attention and action. We
                        encourage CMS to implement all of our recommendations. We also
                        discussed with CMS staff our plans to conduct another review of State
                        Medicaid drug prices in the future to determine whether the price variation
                        we found for these 28 drugs in FY 2001 is an anomaly or if it is
                        representative of an underlying problem. We will work with CMS to
                        address a variety of their outstanding concerns in that inspection. We look
                        forward to continued work with CMS toward our common goal of ensuring
                        the integrity of prescription drug payments under the Medicaid program.




OEI-05-02-00681          VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S   27
                                 A P P E N D I X                                          A            


                                                      SAMPLE OF 28 DRUGS

                                                                        Single Source Drugs (10)
NDC              TRADE NAME                                                        STRENGTH                  UNITS      States with Complete Data
00009454402      Detrol Tablets                                                           2MG                  60                   42
50458032050      Risperdal Tablets                                                        2MG                 500                   41
00002411660      Zyprexa Tablets                                                         7.5MG                 60                   42
00597001314      Combivent Aerosol Inhalation                                  103;18MCG;MCG                  14.7                  41
59627000103      Avonex Kit Administration Pack                                     30MCG/VIL                4 (kits)               41
00074621413      Depakote Tablets                                                       250MG                 100                   42
00006007468      Vioxx Tablet                                                          12.5 MG                100                   40
00186074282      Prilosec Capsules Delayed Release                                       20 MG                1000                  41
00071015623      Lipitor Tablets                                                         20 MG                 90                   42
00087606010      Glucophage Tablets                                                     500 MG                500                   42

                                                               Innovator Multiple Source Sample Drugs (8)*
NDC               TRADE NAME                                                        STRENGTH                 UNITS       States with Complete Data
52544023528       Nor-QD                                                                 .35 MG               6 X 28                40
00078011022       Sandimmune Oral Solution                                           100 MG/ML                50 ML                 36
59930157003       Clotrimazole Cream                                                         1%                45G                  39
00310013034       Zestril Tablets                                                          5MG                 1000                 35
00032421001       Luvox                                                                  100 MG                 100                 41
00310014510       Zestoretic Tablets                                               25;20 MG; MG                 100                 42
59930163601       Normodyne                                                              200 MG                 100                 39
59930151504       Albuterol Sulfate                                                       0.50%               20 ML                 41

                                       Non-Innovator Multiple Source Sample Drugs (10)
NDC                TRADE NAME                                                       STRENGTH                 UNITS      States with Complete Data
55953054470        Ranitidine HCl                                                        150 MG                 500                 41
00228257809        Diltiazem CD Capsules                                                 240 MG                 90                  41
00003010960        Trimox Capsules                                                       500 MG                 500                 42
55953054480        Ranitidine HCl                                                        150 MG                1000                 39
59011010510        Oxycontin Tablets Controlled                                           40 MG                 100                 42
                   Release
00378023110        Atenolol Tablets                                                       50 MG                1000                 42
00555090201        Naltrexone Hydrochloride Tablets                                       50 MG                 50                  39
00781188305        Ranitidine Tablets                                                    150 MG                 500                 41
00228271111        Isosorbide Mononitrate Tablets                                         60 MG                 100                 40
00364047901        Methylphenidate Hydrochloride                                          10 MG                 100                 40



*   Two innovator multiple source drugs that were selected in our sampling were excluded from our analysis because many
    States did not purchase these drugs during FY 2001. They are Nicoderm CQ (NDC 00766145020) and Actiq Lozenge
    (NDC 00074246524).

               OEI-05-02-00681          VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S                               28
               A P P E N D I X                                       B


              PRIMARY INDICATIONS FOR SAMPLE DRUGS

                    The following table lists the primary indications, i.e., the primary
                    conditions that the drugs are intended to treat, for each of the 28 drugs
                    in our sample.



DRUG                                            PRIMARY INDICATION(S)
Albuterol Sulfate                               bronchospasm
Atenolol                                        hypertension and coronary heart disease
Avonex                                          multiple sclerosis
Clotrimazole                                    vaginal yeast infection
Combivent                                       chronic obstructive pulmonary disease
Depakote                                        bipolar disorder
Detrol                                          overactive bladder
Diltiazem CD                                    hypertension
Glucophage                                      diabetes
Isosorbide Mononitrate                          angina
Lipitor                                         high cholesterol
Luvox                                           depression and obsessive compulsive disorder
Methylphenidate Hydrochloride                   attention deficit disorder and narcolepsy
Naltrexone Hydrochloride                        alcohol dependency
Normodyne                                       hypertension
Nor-QD                                          prevention of pregnancy
Oxycontin                                       pain management
                                                duodenal ulcer, gastric ulcer, gastroesophageal reflux disease
Prilosec
                                                (GERD), erosive esophagitis, pathological hypersecretory conditions
                                                duodenal ulcer, gastric ulcer, gastroesophageal reflux disease
Ranitidine HCI
                                                (GERD), erosive esophagitis, pathological hypersecretory conditions
Risperdal                                       schizophrenia and dementia
Sandimmune                                      prevention of organ rejection following transplants
Trimox                                          bacterial infection
Vioxx                                           osteoarthritis, rheumatoid arthritis, acute pain, primary dysmenorrhea
Zestoretic                                      hypertension
Zestril                                         hypertension, heart failure, acute myocardial infarction
Zyprexa                                         schizophrenia and bipolar disorder




OEI-05-02-00681     VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S                               29
                            A P P E N D I X                                      C


                                     SELECTED CHARACTERISTICS OF SAMPLE DRUGS

                                                                Single Source Drugs


                    Percent                                                  FY 2001                     Percent of Total                  Percent of Total
                                  Percent Difference:                                                                        Potential
Drug           Difference: High                                            Expenditures                   Expenditures                    Potential Savings
                                  Interquartile States                                                                       Savings
               and Low States                                               (42 States)                   for 28 Drugs                      for 28 Drugs
Depakote             70.8%                  4.2%                              $66,876,204                     10.2%         $16,284,584          18.8%
Glucophage           21.0%                  4.4%                              $20,337,219                     3.1%           $1,956,958          2.3%
Avonex               20.4%                  5.2%                              $53,387,706                     8.2%           $6,184,122          7.1%
Prilosec             20.3%                  4.8%                              $62,221,082                     9.5%           $7,367,148          8.5%
Detrol               18.3%                  3.1%                              $38,415,841                     5.9%           $2,800,316          3.2%
Combivent            17.8%                  4.7%                              $47,000,368                     7.2%           $3,544,345          4.1%
Vioxx                16.8%                  3.9%                              $33,130,383                     5.1%           $2,877,104          3.3%
Risperdal            13.5%                  2.6%                              $23,967,520                     3.7%           $1,645,946          1.9%
Zyprexa              13.4%                  2.6%                              $48,570,362                     7.4%           $2,712,454          3.1%
Lipitor              12.1%                  3.5%                           $109,940,879                       16.8%          $6,873,801          7.9%
TOTAL                   -                       -                          $503,847,564                       77.1%         $52,246,778          60.2%



                                                      Innovator Multiple Source Drugs


                    Percent                                                  FY 2001                     Percent of Total                  Percent of Total
                                  Percent Difference:                                                                        Potential
Drug           Difference: High                                            Expenditures                  Expenditures for                 Potential Savings
                                  Interquartile States                                                                       Savings
               and Low States                                               (42 States)                     28 Drugs                        for 28 Drugs
Albuterol
Sulfate             227.0%                 52.5%                                $3,696,609                    0.6%           $1,869,895          2.2%
Clotrimazole        194.4%                 10.5%                                $1,525,100                    0.2%            $848,609           1.0%
Normodyne           164.7%                 20.9%                                $2,222,774                    0.3%           $1,172,316          1.4%
Zestoretic           56.8%                  5.9%                                $5,379,487                    0.8%           $1,415,040          1.6%
Sandimmune           49.5%                  5.9%                                $2,069,395                    0.32%           $544,578           0.6%
Luvox                48.7%                  4.1%                              $15,608,090                     2.4%           $2,581,956          3.0%
Nor QD               42.6%                  7.2%                                $1,672,834                    0.3%            $309,259           0.4%
Zestril              33.3%                  3.3%                                $1,756,577                    0.23%           $141,339           0.2%
TOTAL                   -                       -                             $33,930,866                     5.2%           $8,882,992          10.4%




               OEI-05-02-00681      VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S                                      30
                                       SELECTED CHARACTERISTICS OF SAMPLE DRUGS, CONTINUED

                                                     Non-innovator Multiple Source Drugs


                                                  Percent
                            Percent                                                    FY 2001                  Percent of Total                  Percent of Total
                                                Difference:                                                                         Potential
Drug                   Difference: High                                              Expenditures                Expenditures                    Potential Savings
                                               Interquartile                                                                        Savings
                       and Low States                                                 (42 States)                for 28 Drugs                      for 28 Drugs
                                                  States
Atenolol                    4072.7%                 266.3%                                 $1,780,532                0.3%           $1,645,525         1.9%
Ranitidine Tablets          2495.5%                  63.6%                                 $3,637,638                0.6%           $3,116,688         3.6%
Ranitidine (500)            2459.9%                  81.3%                                 $3,961,708                0.6%           $3,438,326         4.0%
Ranitidine (1000)           2274.6%                 111.9%                                 $4,382,270                0.7%           $3,876,220         4.5%
Trimox                      547.5%                   32.5%                                 $2,615,314                0.4%           $1,807,883         2.1%
Isosorbide
Mononitrate                 200.0%                   39.7%                                 $3,693,750                0.6%           $2,045,719         2.4%
Methylphenidate             120.1%                   12.0%                                 $2,913,568                0.5%           $1,275,016         1.5%
Diltiazem                    67.6%                   10.1%                                 $5,533,307                0.9%           $1,761,686         2.0%
Naltrexone                   43.6%                    7.9%                                 $3,349,813                0.5%            $815,141          0.9%
Oxycontin                    20.5%                    2.5%                              $83,758,577                  12.8%          $5,758,943         6.6%
TOTAL                           -                            -                        $115,626,477                  17.9%          $25,541,147        29.5%




                     OEI-05-02-00681       VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S                                    31
                       A P P E N D I X                                               D


                DISTRIBUTION OF STATES’ PRICES FOR LIPITOR AND CLOTRIMAZOLE

                           Multiple source drugs (both non-innovator and innovator) tended to display
                           a different pattern of price variation than single source drugs. When the
                           States’ prices are ordered from low to high, prices for the single source
                           drugs generally increased from the lowest to highest State price at a more
                           consistent rate than multiple source drugs. Multiple source drugs tended to
                           increase more sharply from one State to the next at the low and/or high
                           ends of the price range, while prices of States in the middle of the range
                           increased more gradually from State to State. Comparing the States’ prices
                           for Lipitor, a single source drug, to Clotrimazole, an innovator multiple
                           source drug, illustrates this pattern.

                                                         Distribution of States' Prices for Lipitor

               $2.95

               $2.90

       Unit    $2.85
       Price
               $2.80

               $2.75

               $2.70

               $2.65

               $2.60

               $2.55
                       0               5                   10               15               20        25        30        35    40       45
                                                                42 States, Ordered from Lowest to Highest Paying




                                                    Distribution of States' Prices for Clotrimazole

               $0.45

               $0.40

       Unit    $0.35
       Price
               $0.30

               $0.25

               $0.20

               $0.15

               $0.10

               $0.05
                        0                  5                    10                 15             20        25        30        35        40
                                                                39 States, Ordered from Lowest to Highest Paying




OEI-05-02-00681             VA R I AT I O N    IN   S TAT E M E D I C A I D D R U G P R I C E S                                      32
                                     A P P E N D I X                                             E           


                                                 COMPARISON OF DISPENSING FEES TO STATES’ PRICES
                                                 Though this study focuses on States’ reimbursement for the cost of the drug
                                                 itself, we did collect information on the dispensing fees States paid to
                                                 pharmacies during FY 2001. Of the 42 States, 33 paid flat dispensing fees (e.g.,
                                                 Indiana paid $4.00 per prescription), and 9 paid variable dispensing fees. For
                                                 some of these States, variable dispensing fees vary with the price of the drug,
                                                 such as Texas, which paid a flat fee plus an “inventory management factor” of 2
                                                 percent of the drug cost. Other States’ fees varied by pharmacy. For example,
                                                 Utah paid a higher fee to rural pharmacies than urban pharmacies, and
                                                 Oregon’s fee varied by the volume of prescriptions that the pharmacy filled
                                                 annually. We excluded the nine States with variable fees from our dispensing
                                                 fee comparison.

                                                 For the 33 States with flat fees, we explored whether the States that paid lower
                                                 relative prices for the drugs in our sample compensated by paying higher
                                                 dispensing fees. We compared States’ dispensing fees to their ranks relative to
                                                 other States. The State with the lowest prices was ranked “one.” We graphed
                                                 these data points with State rank along the x-axis (independent variable) and
                                                 State dispensing fee along the y-axis (dependent variable).

                                                 If States that paid lower prices compensated pharmacies with higher dispensing
                                                 fees, then we would expect the graph to show a negative slope, i.e., as the States’
                                                 ranks (and therefore prices) increased, the dispensing fee would decrease. In
                                                 fact, as Chart X below displays, these comparisons demonstrated very little
                                                 relationship at all. The best fit line is almost flat, which would indicate no
                                                 relationship, and the slight slope is in a positive direction (slope = 0.0081).
                                                 Further, the very small R2 (0.0153) indicates that any relationship between
                                                 dispensing fee and relative drug prices for these 33 States is very weak.
                                           Relationship between States' Relative Drug Prices and Dispensing Fees


                 $6.00

                 $5.50

                 $5.00
Dispensing Fee




                 $4.50

                 $4.00

                 $3.50

                                                                                                                                       y = 0.0081x + 3.9247
                 $3.00
                                                                                                                                            R 2 = 0.0153

                 $2.50

                 $2.00
                         0           5             10                       15                   20                     25   30   35            40            45

                                                                                     State Rank
                                                             (1=State with lowest prices , 42=State with highest prices)
                         OEI-05-02-00681           VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S                             33
            A P P E N D I X                                    F


                                            POTENTIAL SAVINGS BY STATE

                                                       Savings as Percent of State’s                    State’s Savings as Percent of
  State             Potential Savings
                                                      Expenditures on Sample Drugs                        Total Potential Savings
  AK                            $64,264                           15.3%                                             0.1%
  AR                           $854,018                           12.2%                                             1.0%
  AZ                             $8,096                           16.7%                                            0.01%
  CO                           $894,285                           13.1%                                             1.0%
  CT                         $1,368,736                           12.2%                                             1.6%
  FL                         $4,513,343                           11.7%                                             5.2%
  GA                         $3,355,312                           14.8%                                             3.9%
  HI                           $327,148                           11.6%                                             0.4%
  ID                           $531,284                           13.7%                                             0.6%
  IL                         $4,615,653                           15.6%                                             5.3%
  IN                         $2,037,517                           12.7%                                             2.4%
  KS                         $1,106,127                           15.5%                                             1.3%
  KY                         $2,986,066                           17.2%                                             3.5%
  LA                         $1,887,159                           12.9%                                             2.2%
  MA                         $2,278,094                           7.6%                                              2.6%
  MD                           $900,427                           12.0%                                             1.0%
  ME                           $844,402                           9.9%                                              1.0%
  MI                           $547,273                           2.6%                                              0.6%
  MN                           $924,362                           8.6%                                              1.1%
  MO                         $3,645,740                           13.9%                                             4.2%
  MS                         $2,484,232                           16.7%                                             2.9%
  MT                           $386,057                           12.9%                                             0.5%
  NC                         $5,090,788                           15.6%                                             5.9%
  ND                           $239,602                           16.0%                                             0.3%
  NE                           $880,540                           15.9%                                             1.0%
  NH                           $430,943                           13.6%                                             0.5%
  NJ                         $5,632,460                           18.1%                                             6.5%
  NM                           $326,577                           16.6%                                             0.4%
  NV                           $418,466                           17.4%                                             0.5%
  NY                        $13,017,331                           16.7%                                            15.0%
  OH                         $7,573,440                           15.0%                                             8.7%
  OK                         $1,098,092                           16.2%                                             1.3%
  OR                         $1,099,746                           13.4%                                             1.3%
  PA                         $3,091,889                           12.4%                                             3.6%
  SC                         $1,556,766                           11.8%                                             1.8%
  SD                           $221,419                           12.9%                                             0.3%
  TX                         $2,536,669                           7.3%                                              2.9%
  UT                           $549,730                           14.0%                                             0.6%
  VT                           $560,638                           12.1%                                             0.7%
  WA                         $4,288,644                           11.3%                                             5.0%
  WV                         $1,323,208                           14.8%                                             1.5%
  WY                           $174,374                           14.5%                                             0.2%
  TOTAL                     $86,670,918                             -                                             100.4%*



* Exceeds 100% due to rounding.

          OEI-05-02-00681          VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S                                   34
    A P P E N D I X                              G             





OEI-05-02-00681   VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S   35
OEI-05-02-00681   VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S   36
   A C K N O W L E D G M E N T S                                                        



                  This report was prepared under the direction of William C. Moran,
                  Regional Inspector General for Evaluation and Inspections in the
                  Chicago Regional Office, and Natalie Coen, Deputy Regional
                  Inspector General. Other principal Office of Evaluation and
                  Inspections staff who contributed include:

                  Emily Melnick, Team Leader

                  Erin Lemire, Lead Analyst

                  Jennifer Gera, Intern

                  Linda Frisch, Program Specialist

                  Tricia Davis, Director, Medicare and Medicaid Branch



                  Technical Assistance

                  Barbara Tedesco, Mathematical Statistician




OEI-05-02-00681    VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S       37
                 E N D          N O T E S                              





1   This figure is based on data from Centers for Medicare & Medicaid Services, Center for Medicaid
    and State Operations, Financial Management Reports, Fiscal Year 2001. Available at
    http://www.cms.gov/medicaid/mbes/ofs-64.asp

2   Bruen, Brian. “States Strive to Limit Medicaid Expenditures for Prescribed Drugs.” Prepared for
    the Kaiser Commission on Medicaid and the Uninsured. Washington, DC; February 2002

3   Kreling, David H., David A. Mott, Joseph B. Wiederholt, Janet Lundy, Larry Levitt. “Prescription
    Drug Trends: A Chartbook Update.” Kaiser Family Foundation. Washington, DC; November
    2001

4   This figure is based on data from Centers for Medicare & Medicaid Services, Center for Medicaid
    and State Operations, Financial Management Reports, Fiscal Year (FY) 2001 and FY 1997. Total
    Medicaid expenditures (minus drug expenditures) increased 31 percent from FYs 1997 to 2001;
    total Medicaid drug expenditures increased 94 percent during the same time period. Data
    available at http://www.cms.gov/medicaid/mbes/ofs-64.asp

5   Centers for Medicare & Medicaid Services, “National Health Expenditure Projections 2001-2011.”
    March 2002. Available at http://cms.hhs.gov/statistics/nhe/default.asp

6   Associated Press. “In Budget Crises, State Leaders Call for U.S. Aid.” New York Times, Final,
    Section A, Page 15, Column 1; July 25, 2002

7   National Association of State Budget Officers. Available at http://www.nasbo.org

8   State Medicaid Manual, Chapter 6, Section 6305. Available at
    http://www.cms.gov/manuals/pub45/pub_45.asp

9   42 CFR § 447.331

10   42 CFR § 447.301

11  State Medicaid Manual, Chapter 6, Section 6305. Available at
    http://www.cms.gov/manuals/pub45/pub_45.asp

12   42 CFR § 447.332

13  State Medicaid Manual, Chapter 6, Section 6305. Available at
    http://www.cms.gov/manuals/pub45/pub_45.asp




              OEI-05-02-00681     VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S   38
14   42 U.S.C. § 1396r-8(a)

15   42 U.S.C. § 1396r-8

16   42 U.S.C. § 1396o(a)(2)

17   42 CFR § 447.54

18   42 U.S.C. § 1396o(e)

19   42 CFR § 433.139

20Conversation with Dr. Stephen Schondelmeyer, Director of the PRIME Institute at the University
 of Minnesota, August 6, 2002

 “Reimbursement for Prescribed Drugs.” Report to the General Court. Commonwealth of
21

 Massachusetts, Executive Office of Health and Human Services, Division of Health Care Finance
 and Policy. October 3, 2002

 “Maximum Allowable Cost Savings Report.” State of Vermont, Agency of Human Services.
22

 December 2, 2002

23Lawson K.A., Hong S.H., Johnsrud M.T., Skrepnek G. “An assessment of cost saving options for
 the Medicaid Vendor Drug Program.” The University of Texas College of Pharmacy, Austin,
 Texas. May 1995

 State Medicaid Manual, Chapter 6, Section 6305. Available at
24

 http://www.cms.gov/manuals/pub45/pub_45.asp

 Office of Inspector General report “Cost Containment of Medicaid HIV/AIDS Drug Expenditures,”
25

 OEI-05-99-00611. July 2001




              OEI-05-02-00681   VA R I AT I O N   IN   S TAT E M E D I C A I D D R U G P R I C E S   39
